                                     News From
                           The Office of Inspector General
                        Corporation For National And Community Service




Ex-Senior Companions Manager Sentenced

A former Senior Companions program manager in Kansas has been sentenced to three
years of probation and ordered to repay more than $28,000 in fraudulently obtained
Corporation grant funds as the result of an investigation by the Office of Inspector
General.

Chamla Brown of Topeka, who administered the program at the East Topeka Senior
Center, pled guilty to one count of Federal program fraud and was sentenced July 8,
2011, in United States District Court.

The OIG investigation found that, in 2007-08, Brown used the program’s credit card and
checking account to illegally obtain Federal grant funds to cover gambling expenses and
increase her salary.
